           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

        THE SOCIAL SECURITY
    ADMINISTRATION’S PROCEDURES
          FOR ADDRESSING
         EMPLOYEE-RELATED
      ALLEGATIONS IN REGION IV

  June 2004         A-04-04-20425




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   June 22, 2004                                                                             Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit


Subject: The Social Security Administration’s Procedures for Addressing Employee-Related
        Allegations in Region IV (A-04-04-20425)


        OBJECTIVE
        Our objectives were to determine whether the Atlanta Regional Office (ARO) complied
        with the Social Security Administration’s (SSA) policies and procedures for addressing
        employee-related allegations and referred all employee-related allegations warranting
        further investigation to the Office of the Inspector General (OIG).

        BACKGROUND

        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers (SSN) and employee conduct. Some examples of employee-related
        allegations include ethics violations, theft of Government property, rude behavior and/or
        poor service to SSA’s customers. SSA receives allegations from employees, the public,
        and the OIG.1 Allegations concerning SSA employees are significant because of the
        potential monetary losses to SSA’s programs and the corresponding negative public
        impact. In determining the validity of allegations, SSA is required to conduct sufficient
        development to support or remove suspicion that criminal violations may have been
        committed.2

        1
          OIG receives employee-related and other allegations through SSA’s fraud hotline. OIG then passes
        these allegations to the responsible SSA component for investigation, resolution, and if necessary referral
        back to the OIG Office of Investigations.
        2
            Program Operations Manual System (POMS), GN 04110.010 A.
Page 2 - Paul D. Barnes

In the ARO, the Office of the Regional Commissioner (ORC) and the Center for Security
and Integrity (CSI) review employee conduct and program-related allegations.
Generally, the ORC reviews service-related allegations that do not appear to involve
fraud. The CSI reviews employee-related allegations involving SSA systems violations
and employee misconduct that may result in an adverse employee action. The CSI is
responsible for supporting field office (FO) managers in developing potential fraud
issues by using computer system analysis and providing other technical support.
Employee-related allegations that are potential criminal violations must be referred to
the OIG for appropriate action.3

In Fiscal Years (FY) 2001 and 2002, OIG’s Allegation Management Division (AMD)
referred 77 employee-related allegations to SSA’s Atlanta Region. In addition, the ARO
identified 26 employee-related allegations received from sources other than the OIG, for
a total of 103 allegations during our audit period.

RESULTS OF REVIEW

The ARO is strongly committed to resolving all employee-related allegations and
considers this task an important management responsibility. However, the ARO’s
procedures for tracking and monitoring the resolution of employee-related allegations
could be improved to ensure each allegation is properly investigated and resolved.
Additionally, the ARO should maintain better documentation to evidence its investigation
and resolution of the allegations. Our audit disclosed the following instances, which we
believe could have been prevented if ARO had more effective procedures:

      •   The investigation of one employee-related allegation identified possible criminal
          activity, which should have been referred to the OIG formally.

      •   The ARO did not investigate three employee-related allegations that involved the
          possible mishandling or misuse of SSA beneficiary information.

      •   The ARO had no evidence that it had investigated, resolved and responded to
          7 of the 77 (9 percent) OIG referred employee-related allegations. Additionally,
          in another of the OIG-referred cases, ARO documentation indicated the Region
          only investigated and resolved allegations concerning one employee, when three
          employees were named in the complaint.4

3
    POMS, GN 04112.005 B.
4
  After we presented a preliminary list of these cases to the ORC, ARO personnel attempted to locate
and/or develop documentation to evidence the investigation and resolution of these cases. For those
cases where the ARO provided documentation of sufficient actions taken by the Region during our audit
period, FYs 2001 and 2002, we deleted those cases from the total exceptions reported. For the eight
cases remaining, the ARO either (1) could not locate documentation indicating the case was ever
investigated and resolved or (2) provided documentation that showed the case was not fully developed
and/or the development occurred recently as a result of our audit.
Page 3 - Paul D. Barnes

      •   The ARO could not provide case documentation to evidence the resolution of
          32 of the 103 (31 percent) employee-related allegations.5

      •   The written responses provided to the ORC for three service-related allegations
          did not document whether the component that investigated the allegation had
          resolved the complainant’s concerns.6

ATLANTA REGIONAL OFFICE SHOULD HAVE FORMALLY REFERRED ONE
EMPLOYEE-RELATED ALLEGATION TO THE OFFICE OF THE INSPECTOR
GENERAL

The ARO’s investigation of one employee-related allegation identified possible criminal
activity, which the Region should have formally referred to the OIG Office of
Investigation Field Division (OIFD). SSA policy states, “When the evidence and
information, either directly or circumstantially, establishes that a potential violation may
have been committed, forward the allegation to the OIFD.... Do not delay forwarding
the allegation to the OIFD even if additional information is being developed.”7

Case documentation indicated that SSA FO officials discussed the circumstances of this
case with a Special Agent from the OIFD. According to one SSA FO manager, he
believed this discussion constituted a formal referral of the case to the OIFD. However,
the Special Agent recalls that he asked the SSA official to refer the case to the OIFD
formally. Despite the misunderstanding, SSA policy requires managers to contact the
OIG regarding possible employee criminal violations and that this contact be
documented in a confidential memorandum to the appropriate OIFD. The SSA policy
also states that the memorandum to the OIFD should contain a complete description of
the alleged or suspected violation, including:

      •   the name, position, and work location of the suspect;

      •   the time, place, and nature of the violation;

      •   how, when, and by whom the violation was discovered;

      •   names, positions, and work locations of potential witnesses; and

      •   any other information pertinent to the violation.8

5
    The 32 cases include the 8 cases discussed in the preceding bullet.
6
  Service-related employee allegations involve a complainant stating that an SSA employee’s conduct
resulted in poor or inadequate service, but did not involve fraud.
7
    POMS, GN 04110.010 C.2.
8
    POMS, GN 04112.015 B.2.
Page 4 - Paul D. Barnes

In this case, several of the employee’s actions were similar to those actions identified on
SSA’s list of employee violations that must be referred to the OIG.9 This list can be
found at Appendix C. Specifically, SSA’s case file documentation indicated an
employee issued new SSNs without required documentation or management approval,
which was apparently contrary to management’s direction. The employee recorded
these actions as if he issued replacement cards. The ARO’s documentation also
indicated the employee arranged for an SSA beneficiary to stay at his friend’s boarding
home. The employee later issued a $999 immediate SSA payment to the boarding
home owner, who he asked to serve as the beneficiary’s representative payee.
Additionally, the employee issued a $6,540 check to the new representative payee on
behalf of the recipient. The recipient later claimed the representative payee had
misused the funds.

Based on the preliminary investigation, ARO management notified the employee of its
proposal and justification to remove him from service. The employee resigned within
45 days from receipt of the proposal. However, because the ARO did not formally refer
the matter to the OIFD, the OIG did not criminally investigate the case. In the future, the
ARO should reiterate to its managers SSA’s policy regarding the formal referral of
employee-related allegations with potential criminal involvement to the OIFD via a
confidential memorandum.

ATLANTA REGIONAL OFFICE DID NOT INVESTIGATE ALLEGATIONS WITH
POSSIBLE SYSTEMS OR ETHICAL VIOLATIONS

The ARO did not investigate three employee-related allegations that indicated the
mishandling or misuse of SSA’s beneficiary information. OIG referred the three
allegations to the CSI unit.

      •   One allegation stated that an SSA employee removed, from an SSA office,
          computer generated printouts containing SSA benefit information and other
          personal beneficiary information.

      •   A second allegation indicated that an SSA employee improperly accessed and
          disclosed individuals’ benefit information.

      •   The third allegation stated an employee from an SSA office released confidential
          information to his former wife who was not authorized to receive the information.
          The allegation further stated two other SSA employees from the same office also
          released confidential information to unauthorized individuals.




9
    POMS, GN 04112.005 A.
Page 5 - Paul D. Barnes

SSA’s policy states:

         “Prior to referral to the Office of the Inspector General, Office of Investigations
         Field Division, each potential violation and allegation must be developed by the
         FO, processing center, or other SSA office to the point where enough evidence
         has been secured to either remove suspicion or substantiate the violation.”10

A CSI official stated that these cases had not been investigated due to a
misunderstanding on whether the CSI or ORC was responsible for investigating the
allegations. Since the allegations were not investigated, we could not determine
whether they were valid or should have been referred to the OIG.

ATLANTA REGIONAL OFFICE COULD NOT PROVIDE DOCUMENTATION TO
SHOW IT PROPERLY INVESTIGATED AND RESOLVED EIGHT OFFICE OF THE
INSPECTOR GENERAL-REFERRED ALLEGATIONS

At the time of our audit, the ARO could provide no evidence that it had investigated,
resolved and reported on 7 of the 77 OIG-referred employee-related allegations.
Additionally, in another of the OIG-referred cases, ARO documentation indicated it only
investigated and resolved allegations concerning one employee, when three employees
were named in the complaint. Seven of the eight allegations involved service-related
matters and one alleged that a FO racially discriminated when it provided customer
service. When the OIG AMD refers an allegation to an SSA component, it asks that a
response be provided–within 90 days–explaining the actions taken to resolve the
allegation. Also, an ARO official stated that the Region forwards OIG referred
employee-related allegations to its components and requires them to investigate and
develop a response to the allegation within 14 days.

Because the ARO could not provide documentation to support the full development of
the eight allegations and no responses had been received by OIG’s AMD, we cannot
determine whether the allegations were investigated properly. Without a complete
investigation, the ARO cannot determine the validity of these allegations and whether
corrective actions are needed. Given the significant time that has elapsed since the
allegations were referred, we believe ARO investigations at this time may yield little
results.

ATLANTA REGIONAL OFFICE COULD NOT ALWAYS PROVIDE CASE
DOCUMENTATION

For 32 of the 103 (31 percent) employee-related allegations received by the ARO during
our audit period, the Region could not locate documentation to evidence it had
investigated and resolved the allegations. In 21 of these cases, OIG’s AMD provided us
with basic information that indicated the ARO closed the cases. Nevertheless, the
resolution of all allegations involving possible employee wrong-doing is such an

10
     POMS, GN 04110.010 B.
Page 6 - Paul D. Barnes

important Agency responsibility, we believe the ARO should maintain sufficient
evidence to document that such cases have been properly handled.

The ARO does not maintain paper case folders for OIG referred employee-related
allegations. Rather, it maintains electronic files that consist of the allegation and the
ARO’s response to the allegation. Typically, the ARO’s response documents the
investigation and resolution of an allegation. From the electronic files, the ARO was
unable to locate a response for 32 of the 77 OIG referred employee-related allegations.

The lack of such documentation limits management’s ability to readily determine
whether appropriate actions were taken to resolve the allegations. Also, insufficient
documentation hampers management’s ability to identify recurring problems related to
certain SSA locations or employees. Finally, because documentation to support the
development of the allegation was not available, we could not determine whether the
allegation was valid or should have been referred to the OIG.

An ARO official stated the Region’s practice has been to retain documentation related to
allegations against an employee for a minimum of 2 years. Moreover, in accordance
with provisions of the Federal Records Act (FRA), we believe documents such as those
concerning employee-related allegations constitute a specific class of records, which
should be maintained in accordance with SSA record retention policies.11

ATLANTA REGIONAL OFFICE OVERSIGHT OF COMPONENT RESPONSES
COULD BE IMPROVED

According to a Regional Office official, the ARO requires its components to investigate
and develop a response detailing corrective actions taken or proposed within 14 days of
the receipt of an employee-related allegation. However, when the ARO forwards an
OIG referred employee-related allegation to the responsible component for
development and resolution, the ARO instructs the component to respond directly to the
OIG with a copy to the ARO. This procedure does not ensure ARO officials review the
responses to determine whether appropriate corrective actions have been taken. We
believe a more effective system would require all responses be directed to the ARO for
review before being forwarded to the OIG.

For example, 3 of the ARO components’ responses to the 77 OIG referred
employee-related allegations did not adequately indicate whether the complainants’
concerns of poor service were resolved.12 Although the components sent a copy of

11
  Federal agencies' records creation, management, and disposal duties are set out in a collection of
statutes known as the FRA. See 44 United States Code (U.S.C.) §§ 2101 et seq., 2901 et seq., 3101 et
seq., 3301 et seq. The FRA prescribes the exclusive mechanism for the disposal of Federal records.
See 44 U.S.C. § 3314 (no records may be "alienated or destroyed" except in accordance with the FRA's
provisions).
12
  The other 26 employee-related allegations referred to ARO from sources other than the OIG did not
involve service-related issues.
Page 7 - Paul D. Barnes

their responses to the ARO, it did not appear that regional management screened these
responses to ensure that the matters had been satisfactorily resolved. Given the
importance of employee-related allegations, we believe oversight by regional
management is integral to ensuring that proper actions are taken.

   •   In one allegation, the complainant alleged poor service in resolving a matter
       where the complainant’s client and another individual with the same name had
       been assigned the same SSN. The allegation further explained the
       complainant’s client was denied a mortgage because his SSN has been used on
       another mortgage loan. However, the response to the allegation only states,
       “...no attempt to defraud was found in this case of multiple users of an SSN.”
       The response did not indicate whether the service issue was addressed or
       resolved.

   •   In a second allegation, the complainant alleged poor service when he attempted
       to obtain a password to access his account information using SSA’s internet web
       site. The response indicated the district office provided some assistance in the
       matter; however, we could not determine whether the primary complaint was
       resolved.

   •   A third allegation stated SSA was not responsive to an individual who reported
       misuse of her funds by a representative payee. The response to the allegation
       indicated actions were initiated to resolve the issue. However, no final resolution
       was documented. As a result, we could not determine whether the matter was
       resolved.

ATLANTA REGIONAL OFFICE PROCEDURES FOR CONTROLLING AND
MANAGING EMPLOYEE-RELATED ALLEGATIONS COULD BE IMPROVED

The ARO’s procedures do not always ensure all employee-related allegations are
investigated and resolved in a timely manner. We found ARO’s procedures for
controlling and monitoring employee-related allegations did not provide management
with information identifying the number of allegations received, investigated, reported, or
that remained unresolved. As a result, management cannot easily identify allegations
that still require an investigation and response. Additionally, the ARO’s current process
for controlling and maintaining documentation related to allegations against an
employee lacked an important internal control feature. Specifically, the ARO did not log
and sequentially number employee-related allegations upon receipt. A sequentially
numbered control log would enable the ARO to identify the total number of
employee-related allegations received and would provide a basis to verify that all files
related to an allegation were maintained.

Our review of the ARO’s procedures for controlling and managing employee-related
allegations identified the following weaknesses. We believe improved procedures
would enable the ARO to manage employee-related allegations better and help
Page 8 - Paul D. Barnes

eliminate the issues identified in this report.

     •   Employee-related allegations were not logged and sequentially numbered upon
         receipt.

     •   Management information regarding the number of allegations received,
         investigated, responded to, and the frequency of the employees or components
         involved was not developed. Without this information, management’s ability to
         identify specific issues needing attention was limited. It could also have used this
         information to identify trends of employee misconduct in the Region.

     •   Employee-related allegations received from sources other than the OIG were not
         formally documented. Specifically, a summary of the allegation was not prepared
         to document the nature of the allegation, the employee or component involved,
         and the date received.

     •   ARO did not have written procedures to address employee-related allegations.13

Federal regulations prescribe that management controls should ensure transactions are
promptly recorded, accounted for, and properly classified.14 Because the ARO did not
use control logs to account for employee-related allegations received from sources
other than the OIG, we were unable to determine whether these allegations were
properly controlled, investigated, and resolved.

A control log containing, at a minimum, a field for a sequential control number, the
allegation number assigned by the OIG, the date received, and the date resolved would
help ensure each allegation is accounted for and would provide management with
information on whether an allegation was resolved or needed investigation. Finally, we
believe written procedures identifying and detailing the roles and responsibilities each
employee and component have in handling employee-related allegations would improve
the ARO’s ability to manage employee-related allegations.




13
  In a previous audit report, The Social Security Administration's Regional Office Procedures for
Addressing Employee-Related Allegations in Region VI (A-06-03-13075), we identified procedures
Region VI had implemented to address employee-related allegations. We believe similar procedures
would be beneficial for Region IV.
14
  Office of Management and Budget Circular, A-123, Attachment II, Establishing Management Controls
(as revised June 21, 1995).
Page 9 - Paul D. Barnes

CONCLUSION AND RECOMMENDATIONS
We acknowledge the importance the ARO places on resolving all employee-related
allegations. However, our review found the ARO’s procedures for addressing
employee-related allegations could be improved to ensure all allegations are
investigated and properly resolved. Also, ARO should ensure that information is
maintained to document the investigation and resolution of employee-related
allegations.

Accordingly, we recommend the ARO:

   1. Record all employee-related allegations received by the ARO in a control log.
      We suggest the control log contain a sequential control number, the OIG AMD
      allegation number, date received, and the date resolved.

   2. Periodically review all employee-related allegations to ensure the appropriate
      corrective actions have been taken.

   3. Maintain case documentation that supports investigative and resolution actions
      taken on all employee-related allegations.

   4. Prepare descriptions and maintain documentation of employee-related
      allegations received from sources other than the OIG. For example, the ARO
      could prepare a summary to document the nature of the allegation, the employee
      or component involved, and the date received.

   5. Consider developing and issuing regional policies that outline the action
      components should take to develop, track, document, and resolve employee-
      related allegations.

AGENCY COMMENTS

SSA agreed with all our recommendations and has already taken corrective actions on
most. See Appendix D for the text of SSA’s comments.




                                                      S
                                                      Steven L. Schaeffer
T



                                     Appendices
Appendix A – Acronyms

Appendix B – Scope and Methodology

Appendix C – Employee Violations

Appendix D – Agency Comments

Appendix E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A
Acronyms
AMD        Allegation Management Division
ARO        Atlanta Regional Office
CHR        Center for Human Resources
CSI        Center for Security and Integrity
FRA        Federal Records Act
FO         Field Office
FY         Fiscal Year
OIG        Office of the Inspector General
OIFD       Office of Investigation Field Division
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
U.S.C.     United States Code
                                                                      Appendix B
Scope and Methodology
Our review included Fiscal Years (FY) 2001 and 2002. For this period, we identified
and reviewed 77 referrals from the Office of the Inspector General (OIG) and
26 employee-related allegations from sources other than the OIG. Additionally, we
reviewed the adverse actions processed by the Center for Human Resources’ (CHR)
Employee Relations Staff to identify severe actions that may be related to possible
criminal violations.

To accomplish our objectives, we:

   •   Reviewed the following criteria:
         • Office of Management and Budget Circular A-123, Management
             Accountability and Control,
         • Program Operations Manual System,
         • The Social Security Administration’s (SSA) Administrative Instructions
             Manual System, and
         • Standards of Ethical Conduct for Employees of the Executive Branch.

   •   Obtained the database of employee-related allegations processed by the OIG
       during FYs 2001 and 2002.

   •   Interviewed officials within the Office of the Regional Commissioner (ORC),
       Center for Security and Integrity (CSI), and CHR in Atlanta, Georgia.

   •   Reviewed ORC and CSI documentation for the development of evidence related
       to allegations received from the OIG and other sources.

   •   Reviewed documentation processed by CHR for the development of evidence
       applicable to adverse actions.

We performed field work at the SSA Regional Office in Atlanta, Georgia from July 2003
through February 2004. The entity reviewed was the Atlanta Regional Office under the
Deputy Commissioner for Operations. We conducted our review in accordance with
generally accepted government auditing standards.
                                                                                           Appendix C
Employee Violations
                          EMPLOYEE POTENTIAL VIOLATIONS
                   (Program Operations Manual System GN 04112.005D)
Employee violations include but are not limited to situations in which an employee is suspected of willfully
    •   acting as an agent or attorney for prosecuting any Social Security claim before the Commissioner
        while an employee;
    •   disclosing without authorization any confidential information in violation of the Social Security Act
        or the Privacy Act of 1974;
    •   obtaining or attempting to obtain confidential information under false pretenses;
    •   making or causing to be made any false representation concerning the requirements of the Social
        Security Act or related provisions of the Internal Revenue Code;
    •   asking for, accepting, or agreeing to accept anything of value from a third party in return for
        executing or influencing the performance of official duties;

    •   participating in the planning or execution of any scheme or other activity under which a financial or
        other advantage improperly accrues or could accrue to any person or organization at the expense
        of the Government or parties with whom the Government may contract or otherwise deal;
    •   stealing or otherwise illegally disposing of refund remittances, Government checks, cash, directly
        deposited funds, or other obligations;

    •   illegally generating Social Security checks or depositing funds electronically to oneself or another;
    •   stealing or mutilating Government records, or destroying or removing them without authorization;
    •   violating conflict of interest laws as described in the Ethics in Government Act, the Standards of
        Ethical Conduct for Employees of the Executive Branch, and the SSA Guide on Employee
        Conduct;
    •   making or causing to be made any false statement or representation about wages, earnings, or
        self-employment income in connection with claims or the maintenance of earnings records;

    •   making or causing to be made any false statement or representation of a material fact in an
        application for payments or for a disability determination, or at any other time for use in
        determining rights to payments;
    •   concealing or failing to disclose a fact or event affecting initial or continued eligibility for payment;
    •   furnishing or causing to be furnished false information about identity in connection with a claim,
        issuing a Social Security number, or maintaining an earnings record;
    •   selling Social Security numbers/cards; or
    •   unlawfully disclosing, using, or compelling the disclosure of a Social Security number.
                  Appendix D
Agency Comments
To:         Assistant Inspector General for Audit

From:       Regional Commissioner
            Atlanta

Subject:    The Social Security Administration’s Procedures for Addressing
            Employee-Related Allegations in Region IV (A-04-04-20425)--REPLY


      We reviewed the findings and recommendations in the OIG Draft Report on
      Employee-Related Allegations. In the report, OIG acknowledges the importance
      the Atlanta Regional Office (ARO) places on resolving all employee-related
      allegations but made the following recommendations to ensure all allegations are
      investigated and properly resolved. In response to the report, our comments are
      provided in blue.

         1. Record all employee-related allegations received by the ARO in a control
            log. We suggest the control log contain a sequential control number, the
            Office of Inspector General Allegation Management Division (OIG AMD)
            allegation number, date received, and the date resolved.

            A control log has been developed which captures all the information
            recommended above. The database is maintained by the Center for
            Security and Integrity (CSI) and was established in March 2004.

         2. Periodically review all employee-related allegations to ensure the
            appropriate corrective actions have been taken.

            The CSI staff routinely reviews all case development to ensure
            appropriate corrective actions have been taken prior to submitting an
            allegation response to OIG AMD.

         3. Maintain case documentation that supports investigative and resolution
            actions taken on all employee-related allegations.

            CSI maintains an electronic folder containing all OIG allegation cases
            including all correspondence between CSI and the case developer and the
            final allegation reply that CSI sends to the OIG AMD to clear the case.

         4. Prepare descriptions and maintain documentation of employee-related
            allegations received from sources other than the OIG. For example, the
            ARO could prepare a summary to document the nature of the allegation,
            the employee or component involved, and the date received.

            We agree and will begin to capture employee-related allegations we
            receive from sources other than the OIG as part of our current control
            system.

                                         D-1
   5. Consider developing and issuing regional policies that outline the action
      components should take to develop, track, document, and resolve
      employee-related allegations.

      CSI does refer all allegations to the appropriate component with guidance
      on addressing the development and resolution of the case. The
      components are also given a time frame in which to respond to ensure
      timely resolution of all current issues.

Thank you for the opportunity to comment. If you have questions, please contact
Nathan Holmes at (404) 562-1292.


                                 Paul D. Barnes




                                   D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Kim Byrd, Director (205) 801-1605

      Frank Nagy, Audit Manager (404) 562-5552

Acknowledgments

In addition to those named above:

      Catherine Burnside, Senior Auditor

      Phillip Krieger, Auditor

      Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-04-20425.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
  House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on Appropriations,
U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
